                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                OFFICE OF INSPECTOR GENERAL




                           FINAL REPORT:

                 Administration of Payments Received
                Under the Help America Vote Act by the
                  Utah Office of Lieutenant Governor



                    APRIL 29, 2003 THROUGH JULY 31, 2010




Report No.
E-HP-UT-09-10
March 2011
                       U.S. ELECTION ASSISTANCE COMMISSION

                                 OFFICE OF INSPECTOR GENERAL

                                1201 New York Ave. NW - Suite 300

                                      Washington, DC 20005



                                                                                 March 31, 2011

Memorandum


To:	       Thomas Wilkey
           Executive Director

From:	     Curtis W. Crider
           Inspector General

Subject:	 Final Audit Report - Administration of Payments Received Under the Help America
          Vote Act by the Utah Office of Lieutenant Governor
          (Assignment Number E-HP-UT-09-10)

       We contracted with the independent certified public accounting firm of Clifton
Gunderson LLP (Clifton Gunderson) to audit the administration of payments received under the
Help America Vote Act (HAVA) by the Utah Office of Lieutenant Governor (OLG). The
contract required that the audit be done in accordance with U.S. generally accepted government
auditing standards. Clifton Gunderson is responsible for the attached auditor’s report and the
conclusions expressed therein.

        In its audit of the OLG, Clifton Gunderson concluded that the OLG generally accounted
for and expended HAVA funds in accordance with the HAVA requirements and complied with
the financial management requirements established by the U.S. Election Assistance Commission.
However, the audit disclosed that the OLG failed to maintain adequate property records for
HAVA funded equipment, submitted financial reports to the EAC that included errors, retained
interest earnings on HAVA and state matching funds in the general fund, and did not deposit
program income into the election fund.

       In its December 16, 2010, response to the draft report (Appendix A-1), the OLG agreed
with the report’s findings and recommendations, which they confirmed in a February 28, 2011,
email response to the draft report.

        On March 14, 2011, the EAC response (Appendix A-2) indicated general agreement with
the report findings and recommendations, and stated that they would work with the state to
ensure corrective action, including the implementation of required federal record retention
policies. We would appreciate being kept informed of the actions taken on our recommendations
as we will track the status of their implementation. Please respond in writing to the finding and
recommendation included in this report by May 31, 2011. Your response should include
information on actions taken or planned, targeted completion dates, and titles of officials
responsible for implementation.
        The legislation, as amended, creating the Office of Inspector General (5 U.S.C. § App.3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented. Therefore, this
report will be included in our next semiannual report to Congress.

       If you have any questions regarding this report, please call me at (202) 566-3125.
                      
                      
    PERFORMANCE AUDIT REPORT


ADMINISTRATION OF PAYMENTS RECEIVED

             UNDER THE

       HELP AMERICA VOTE ACT

               BY THE

           STATE OF UTAH



   April 29, 2003 Through July 31, 2010



       UNITED STATES ELECTION

       ASSISTANCE COMMISSION

                      
                      
                      
                      
                      
                      




                     a1 
                                                  TABLE OF CONTENTS




                                                                                                                              PAGE


EXECUTIVE SUMMARY ............................................................................................................ 1

BACKGROUND.......................................................................................................................... 2

AUDIT OBJECTIVES ................................................................................................................. 3

SCOPE AND METHODOLOGY ................................................................................................. 4

AUDIT RESULTS ....................................................................................................................... 5

APPENDICES


Appendix A-1: Office of the Lieutenant Governor Response to Audit Results .................. 10

Appendix A-2: U. S. Election Assistance Commission Response to Draft Report............. 13

Appendix B: Audit Methodology ............................................................................................ 14

Appendix C: Monetary Impact as of July 31, 2010 ................................................................ 16
                        U.S. Election Assistance Commission

        Performance Audit of the Administration of Payments Received Under the

                     Help America Vote Act by the State of Utah


EXECUTIVE SUMMARY

Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General to conduct a performance audit of the Utah Office of
the Lieutenant Governor (OLG) for the period April 29, 2003 through July 31, 2010 to determine
whether the OLG used payments authorized by Sections 101, 102, and 251 of the Help America
Vote Act of 2002 (HAVA or the Act) in accordance with HAVA and applicable requirements;
accurately and properly accounted for property purchased with HAVA payments and for
program income, and met HAVA requirements for Section 251 funds for an election fund and for
a matching contribution except for the requirements for maintenance of a base level of state
outlays, commonly referred to as Maintenance of Expenditures (MOE). On June 28, 2010, the
Commission issued a revised definitive policy on the requirements for the MOE. The policy
included a provision that the states will have 12 months from the date of the revised policy to
voluntarily submit a revised MOE plan to the EAC. Accordingly, our scope of audit did not
include a determination of whether the OLG and its subgrantees met the requirements for MOE.

In addition, the Commission requires states to comply with certain financial management
requirements, specifically:

   •	 Comply with the Uniform Administrative Requirements for Grants and Cooperative
       Agreements with State and Local Governments (also known as the “Common Rule”) as
       published in the Code of Federal Regulations 41 CFR 105-71.

   •	 Expend payments in accordance with cost principles for establishing the allowance or
       disallowance of certain items of cost for federal participation issued by the Office of
       Management and Budget (OMB) in Circular A-87, Cost Principles for State, Local, and
       Indian Tribal Governments.

   •	 Submit detailed annual financial reports on the use of Title I and Title II payments.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for the maintenance of adequate property records for HAVA funded equipment, financial
accounting and reporting errors, interest on HAVA and state matching funds, and the failure to
deposit program income into the election fund as discussed below, our audit concluded that the
OLG generally accounted for and expended HAVA funds in accordance with the requirements
mentioned above for the period from April 29, 2003 through July 31, 2010. The exceptions
needing OLG’s management attention are as follows:




                                                1
	
      •	 Inventory listings of voting equipment did not conform to the requirements of 41 C.F.R.
           105-71.132 (d) (1), (the Common Rule) at the seven counties we visited. The listings did
           not include required elements such as use and condition of the property, or the federal,
           state, or county percentage of ownership.
      •	   Amounts reported to EAC on financial status reports did not reconcile to the state’s
           financial accounting system or the state treasury reports. A report of HAVA funds
           received and expended by the OLG through July 31, 2010 showed a balance that was
           $1,958 higher than the amount in the election fund deposited in the state treasury.
      •	   Utah state policy requires state agencies which deposit funds into the state’s Public
           Treasury Investment Fund (PTIF) to set aside in the state’s general fund a minimum of
           $50,000 or 10 percent of the amount deposited. Interest on the $50,000 of HAVA funds
           deposited in the general fund has been retained as a management fee by the PTIF
           instead of being transferred into the election fund.
      •	   The state used in-kind expenditures to satisfy its state matching requirements for the
           2003 and 2004 requirements payments. However, the in-kind expenditures were not
           made prior to receipt of the requirements payments. As a result there is lost interest to
           the election fund because of the delayed payments. In addition the state did not have
           support for some of the in-kind payments. The state received a requirements payment
           on August 26, 2009. The required matching payment of $70,975 was not transferred into
           the election fund until December 1, 2009, resulting in lost interest to the election fund.
      •	   Program income generated from the sale of HAVA funded T-shirts was not deposited
           into the election fund as required by federal regulations.


We have included in this report as Appendix A-1 the OLG managements’ December 16, 2010,
formal response to our findings and recommendations (NFRs). In a February 28, 2011 email
response to the draft report, OLG management stated they had no additional comments.
Although we have included management’s written responses to our NFRs, such responses have
not been subjected to the audit procedures and, accordingly, we do not provide any form of
assurance on the appropriateness of the responses or the effectiveness of the corrective actions
described therein.
OLG  officials generally agreed with the findings and recommendations and provided corrective
action; however, they noted the following:

    •	 They followed state guidelines regarding the retention of documentation, which was
        destroyed subsequent to audits conducted by the State Auditor.
    •	 They followed state guidelines regarding the requirement to maintain $50,000 in the
        PTIF.
The draft report, including the OLG response, was provided to the Executive Director of the
EAC for review and comment. The EAC responded on March 14, 2011, and generally
concurred with the report’s findings and recommendations. The EAC stated that they will work
with the OLG to ensure appropriate corrective action, including the implementation of required
federal record retention policies. The EAC’s complete response is included as Appendix A-2.

BACKGROUND
HAVA created the Commission to assist states and insular areas with the improvement of the
administration of Federal elections and to provide funds to states to help implement these
improvements. HAVA authorizes payments to states under Titles I and II, as follows:




                                                   2

    •	 Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
        uniform and nondiscriminatory election technology and administration requirements,
        improving the administration of elections for Federal office, educating voters, training
        election officials and poll workers, and developing a state plan for requirements
        payments.

    •	 Title I, Section 102 payments are available only for the replacement of punch card and
        lever action voting systems.

    •	 Title II, Section 251 requirements payments are for complying with Title III requirements
        for voting system equipment; and for addressing provisional voting, voting information,
        statewide voter registration lists, and voters who register by mail.

Title II also requires that states must:

    •	 Have appropriated funds “equal to 5 percent of the total amount to be spent for such
        activities [activities for which requirements payments are made].” [Section 253(b) (5)].

    •	 “Maintain the expenditures of the state for activities funded by the [requirements] payment
        at a level that is not less than the level of such expenditures maintained by the state for
        the fiscal year ending prior to November 2000.” [Section 254 (a) (7)].

    •	 Establish an election fund for amounts appropriated by the state “for carrying out the
        activities for which the requirements payment is made,” for the Federal requirements
        payments received, for “such other amounts as may be appropriated under law,” and for
        “interest earned on deposits of the fund.” [Section 254 )(b)(1)].

AUDIT OBJECTIVES

The objectives of our audit were to determine whether the Utah Office of the Lieutenant
Governor:

    1.		 Used payments authorized by Sections 101, 102, and 251 of HAVA in accordance with
         HAVA and applicable requirements;

    2.		 Accurately and properly accounted for property purchased with HAVA payments and for
         program income;

    3.		 Met HAVA requirements for Section 251 funds for an election fund and for a matching
         contribution. We did not determine whether the OLG met the requirement for
         maintenance of a base level of state outlays, commonly referred to as Maintenance of
         Expenditures (MOE). On June 28, 2010, the Commission issued a revised definitive
         policy on the requirements for the MOE. The policy included a provision that the states
         will have 12 months from the date of the revised policy to voluntarily submit a revised
         MOE plan to the EAC. Accordingly, our scope of audit did not include a determination of
         whether the OLG and its subgrantees met the requirements for MOE.




                                                 3
	
In addition, to accounting for HAVA payments, the Act requires states to maintain records that
are consistent with sound accounting principles that fully disclose the amount and disposition of
the payments, that identify the project costs financed with the payments and other sources, and
that will facilitate an effective audit. The Commission requires states receiving HAVA funds to
comply with certain financial management requirements, specifically:

    1.		 Comply with the Uniform Administrative Requirements for Grants and Cooperative
         Agreements with State and Local Governments (also known as the “Common Rule”) as
         published in the Code of Federal Regulations at 41 CFR 105-71.

    2.		 Expend payments in accordance with cost principles for establishing the allowance or
         disallowance of certain items of cost for federal participation issued by the OMB.

    3.		 Submit detailed annual financial reports on the use of Title I and Title II payments.1

SCOPE AND METHODOLOGY

We audited the HAVA funds received and disbursed by the OLG from April 29, 2003 through
July 31, 2010 (87-month period) as shown in the following table:
                               FUNDS RECEIVED                                                                                      
 TYPE OF             EAC     PROGRAM    STATE    INTEREST    TOTAL    FUNDS                                             DATA 
PAYMENT            PAYMENT  INCOME      MATCH     EARNED    AVAILABLE  DISBURSED                                        AS OF 
                                                                                                                            
Section 101       $  3,090,943       $         0    $             0      $   555,725    
                                                                                       $ 3,646,668       $2,723,911     
                                                                                                                       7/31/2010 
Section 102          5,726,844                 0                  0          536,464      6,263,308       6,263,308    7/31/2010 
Section 251       17,986,710                   0     946,669  2              631,640     19,565,019      19,089,658    7/31/2010 
                                                                                                                                   
   Total          $26,804,497        $         0    $   946,669          $1,723,829    $29,474,995      $28,076,877    7/31/2010 

Our audit methodology is set forth in Appendix B.




1  EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and 251 funds.
Through December 31, 2008, for Sections 101 and 102, reports were due on February 28 for the activities of the
previous calendar year, and, for Section 251, reports were due by March 30 for the activities of the previous fiscal
year ending on September 30. Beginning in calendar year 2009, all reports will be effective as of September 30,
20XX for the fiscal year ended that date and will be due by December 31, 20XX.

2Utah’s state match contribution consisted of a combination of in-kind expenditures totaling $866,669 for voting
systems and other HAVA related expenditures as well as an $80,000 cash contribution for its 2008 and 2009
requirements payment. The in-kind expenditures have been included with the expenditures in the Funds Disbursed
column.


                                                                4
	
AUDIT RESULTS

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for the maintenance of adequate property records, financial accounting and reporting
errors, interest on HAVA and state matching funds, and failure to deposit program income, our
audit concluded that the OLG generally accounted for and expended HAVA funds in accordance
with the requirements mentioned above. The OLG has taken action on or is working to resolve
the exceptions described below as set forth in Appendix A:

I.	 Property Records for HAVA Funded Equipment

The equipment listings from the seven counties we visited did not conform to the requirements
of 41 C.F.R. 105-71.132 (d)(1), (the Common Rule). We noted that the listings included a
description of the equipment, serial number and the location, but did not include the federal,
state, or county percentage of ownership, source of the property, who holds title, use and
condition of the property, acquisition date, cost, and percentage of federal participation in the
cost.

The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments 41 CFR § 105-71.132(d)(1), referred to as the Common Rule, states
that:

       “property records must be maintained that include a description of the property, a serial
       number or other identification number, the source of property, who holds the title, the
       acquisition date, cost of the property, percentage of Federal participation in the cost of
       the property, the location, use and condition of the property, and any ultimate disposition
       data including the date of disposal and sale price of the property.”

OLG election officials informed us that they were not aware of the detailed recordkeeping
requirements of the Common Rule.

Recommendation:

1.		 We recommend that EAC require that the OLG ensure that the property records at counties
     include the minimum information required by the Common Rule.

OLG’s Response:

OLG management concurred with the finding and stated that they would work with the counties
to implement the recommendation.




                                                5
	
II.	 Financial Accounting and Reporting Errors

Amounts reported on the financial status reports (FSRs), Forms SF269 and SF425, did not
reconcile to the state’s financial accounting system or the state treasury reports.

During our review of the annual FSRs the following exceptions were noted:

     •	 Expenditures reported for Section 101 as of September, 30 2009 totaled $2,671,131,
        compared to actual expenditures of $2,854,365, resulting in an unexplained difference
        not reported on the SF-425 by $183,234.
     •	 Our recalculation of the state’s matching funds indicated that the amount reported was
        understated by $53,740.
     •	 Interest earnings do not agree to detailed worksheets nor to statements from the PTIF
        for the period ended September 30, 2009. Based on the state treasury statements, the
        interest reported on the SF-425s is understated by $8,154.62

We also reviewed the state prepared reconciliation of all HAVA funds received and expended
from the inception of the program through 7/31/10. The ending balance on this reconciliation
for Section 101 funds was $1,958 higher than the balance in the treasurer’s report.

HAVA Section 902. AUDITS AND REPAYMENT OF FUNDS, Part (a) – Recordkeeping
Requirement states that:

        “each recipient of a grant or other payment made under this Act shall keep such records
        with respect to the payment as are consistent with sound accounting principles, including
        records which fully disclose the amount and disposition by such recipient of funds, the
        total cost of the project or undertaking for which such funds are used, and the amount of
        that portion of the cost of the project or undertaking supplied by other sources, and such
        other records as will facilitate an effective audit.”

In addition, the EAC has provided guidance on the preparation of the annual reports on its
website at: http://www.eac.gov/payments_and_grants/reporting.aspx

Recommendations:

We recommend that:

2.   EAC work with the OLG to determine whether it is necessary to file revised annual reports.

3.		 OLG officials develop procedures to ensure that the HAVA accounting records and reports
     are accurate.

OLG’s Response:

OLG officials expressed reservations regarding the finding, because accounting records had
been destroyed pursuant to state retention schedules after state auditors had completed audits
and issues had been resolved. They stated that measures had been implemented which are
intended to improve the record keeping system and to maintain the appropriate documentation.




                                                6
	
III.	 Interest

Utah deposited its HAVA funds into the state’s PTIF. State policy requires users of the PTIF to
maintain a minimum uninvested cash balance of $50,000, or ten percent of the investing fund’s
cash and investment balance. Interest earned on this uninvested cash balance is retained by
the PTIF as a fee for the use of the PTIF. This policy is inconsistent with provisions of the Help
America Vote Act which requires that interest on HAVA funds be deposited in the election fund.

HAVA Section 254(b)(1) requires that the following monies be deposited into its election fund:

    D.		 Interest earned on deposits of the fund.

Recommendation:

4.		 We recommend that the EAC work with the OLG to determine whether the fee paid to PTIF,
     equal to the interest on the $50,000, is an allowable HAVA expenditure. If not, the
     cumulative interest should be allocated and credited to the HAVA election fund.

OLG’s Response:

OLG officials stated that they were complying with state policy, because it is a requirement to
maintain deposits in PTIF.

IV. State Matching Funds

The OLG asserted that it used in-kind expenditures to meet part of its state matching funds
requirement; however, the state did not expend the amounts necessary to support this
requirement prior to receiving 2003 and 2004 Section 251 funds. The state certified on July 6,
2004 and August 4, 2009 that it was in compliance with the requirements of Section 253(b) of
the Help America Vote Act even though they had not deposited or expended sufficient funds to
meet the state matching requirement by these dates.

    •	 When Utah received the 2003 and 2004 Section 251 payments on December 27, 2004,
       the state should have already deposited the required matching funds of $866,694.
       However, the state expended only $130,162 of in-kind expenditures by December 27,
       2004. Because not all of the in-kind expenditures were made prior to receipt of Section
       251 funds, the cumulative match payments were below the required amount from
       December 27, 2004 through 2005. During 2006 the state made additional in-kind
       expenditures which exceeded the state match required by $86,935. The state believes
       that this amount exceeds the interest due the election fund from the delayed in-kind
       expenditures.

    •	 The state received an additional Section 251 payment on August 26, 2009. However, at
       the time of receipt, the state had not deposited the required $70,975 match payment in
       the election fund. The matching funds were deposited on December 1, 2009, causing
       the election fund to lose three months of interest.




                                                    7
	
In addition, we were not able to test the full balance of in-kind expenditures. The state claimed
that they had made a total of $953,624 of in-kind payments, used primarily for payment for
voting equipment, state salaries, payroll expenses for HAVA related activities, and consulting
services for development of the state-wide voter registration system. We tested a sample of in-
kind expenditures totaling $835,042 of which $658,934 were tested without exception. The
state was unable to provide to us the support for $176,108 of claimed in-kind expenditures,
because records had been destroyed in accordance to the state’s records retention policy.

HAVA Section 253(b)(5) requires, as a condition for receiving requirements payments, that:

       “the state has appropriated funds for carrying out the activities for which the
       requirements payment is made in an amount equal to 5 percent of the total amount to be
       spent for such activities (taking into account the requirements payment and the amount
       spent by the State) and, in the case of a State that uses a requirements payment as a
       reimbursement under section 251(c)(2), an additional amount equal to the amount of
       such reimbursement.”

HAVA Section 254(b)(1) requires that the following monies be deposited into its election fund:

       “D.    Interest earned on deposits of the fund."

HAVA Section 902. AUDITS AND REPAYMENT OF FUNDS, Part (a) Recordkeeping
Requirement states that:

        “Each recipient of a grant or other payment made under this Act shall keep such
        records with respect to the payment as Are consistent with sound accounting principles,
        including records which fully disclose the amount and disposition by such recipient of
        funds, the total cost of the project or undertaking for which such funds are used, and the
        amount of that portions of the cost of the project or undertaking supplied by other
        sources, and such other records as will facilitate an effective audit.”

Further, EAC’s website section for Frequently Asked Questions answers the following question
regarding record retention requirements:
 
       Question 40: When does the grant period end and the record keeping requirement start
                     for HAVA funds?

       EAC’s response: The record keeping requirement begins upon the close of the grant
       period, when the last and closing report is filed. The grant period closes when the state
       (or political subdivisions of the state on its behalf) has expended all federal, state and
       interest funds contained in the election fund.

Recommendations:

We recommend the EAC work with the state:

5.		 to determine the amount of interest earnings that were not transferred to the election fund,
     because matching funds in-kind payments were not expended timely.

6.		 to resolve the issue of missing documentation on in-kind expenditures.



                                                8
	
OLG’s Response:
OLG officials believe that the excess matching funds of $86,935 will be adequate to offset any
interest earnings that might be due, and they also believe they complied with state guidelines
regarding the destruction of supporting documentation.
V.	   Program Income
The state of Utah used HAVA funds to purchase T-shirts with the word “VOTE” on the front and
an internet address, leaveyourprint.com, on the back. The internet address linked to the Office
of the Lieutenant Governor’s website, which provided information about voting. The T-shirts
were given to individuals who came to voter education events such as demonstrations of the
state’s HAVA funded voting machines. The election office also sold 1,010 of these T-shirts to
counties for $5 per shirt or a total of $5,050. The income from these sales was deposited into
the state’s general fund rather than the HAVA election fund as required by the Common Rule.
The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments, 41CFR § 105-71.125, states that program income means gross
income received by the subgrantee directly generated by a grant supported activity, or earned
only as a result of the grant agreement during the grant period. Costs incident to the generation
of program income may be deducted from gross income to determine net program income.
The EAC Advisory 07-002 – Program Income and Set-off of Cost Incident to Program Income
authorizes states to dedicate program income to the HAVA grant and use the income for
purposes and under conditions of the grant.
The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments, 41CFR § 105-71.141 states that each grantee will report program
outlays and program income on a cash or accrual basis as prescribed by the awarding agency.
Recommendation:
7.		 We recommend that EAC work with the state to determine the net program income from the
     sale of T-shirts, and require the state to transfer that amount into the election fund, plus any
     interest earnings that would have accrued on the funds.
OLG’s Response:
OLG officials agreed with the finding and will implement the recommendation.
                                ****************************************
We provided a draft of our report to the appropriate individuals of the Utah Office of the
Lieutenant Governor, and the Commission. We considered any comments received prior to
finalizing this report.
The EAC responded on March 14, 2011 and generally concurred with the report’s findings and
recommendations, and stated that they would work with the OLG to ensure appropriate
corrective action, including the implementation of required federal record retention policies.
CG performed its work between August 9, 2010 and August 27, 2010.
a1 
Calverton, Maryland
October 15, 2010


                                                   9
	
                                                                                                     Appendix A

                                  STATE OF UTAH
                               OFFICE O F T I·I E LIE UTE NANT GO V ER NOR




                                              GR EG B ELL
                                       LIEUTENANT GOVERNOR




                                        December 16, 2010



Curtis Crider
Office of Inspector General
Election Assistance Commission
ccrider@eac.gov



Dear Mr. Crider,

Thank you for extending our response deadline an additional week.

Enclosed you will find Utah ' s responses to the Notification of Findings and
Recommendation.

Please let me know if you have any questions.




                                               ~r~
                                                Director of Elections



Enclosure




                                                  10

            UTAH STATE CAPITOL , SU ITE 220 • P.O. B ox 142 325 • SALT LAKE CIT V, UTAH 84114-2325
                                 T EL : (801) 538-1041 • F Ax: (801) 538 - 1133
UTAH'S RESPONSES TO THE NOTICE OF FINDING AND
             RECOMMENDA TIONS
               December 16,2010


NFR #l-Property Management

The Office of the Lieutenant Govemor (OLG) agrees with this NFR. Having now been
made aware of the requirement to record celtain information about property, the OLG
will work with each Utah county to properly develop and maintain an inventory listing of
all applicable equipment in accordance with 41 C.F.R. 105-71.132 (d)(I).



NFR #2-Financial Accounting and Reporting Errors

[nitial testing of financial accounting and reporting was for 2009 and 20 I O. The auditors
then deemed it necessary to go back to 2003, the inception of the grant. There is some
uneasiness regarding the findings due to records having been destroyed per state retention
schedules and after an audit perfonned by the State Auditor for this period.

Each year the Financial Manager and the Deputy Chief of Staff for the OLG verified the
reports submitted to the EAC. All differences where reconciled and corrected or new
reports where submitted. [n 2006, the State Auditor found no errors or undocumented
items in their HAVA election fund audit. After six years many of the records had been
destroyed per state retention schedules.

In regards to the recommended action, the OLG has implemented measures intended to
improve the record keeping system and will follow tllis system in the future as well as
keeping copies of all documentation with the grant reports.



NFR #3-Interest on Deposits of Federal Funds

Utah initially invested all federal funds from the three HA VA grants into one investment
account. When the OLG discovered that interest needed to incur on each grant
separately, the funds were trans felTed from one investment account into three separate
investment accounts . This included the separate grant principle and the percentage of
interest earned in direct relationship to the principle.

The OLG followed Utah State policy, which requires all users of the Public Treasury
Investment Fund to maintain a balance of$50,000. If the OLG did not follow this policy,
there would be no other mechanism available to the OLG to eam interest. State law does
not allow state agencies to open or utilize separate bank accounts.



                                        11

T 1e                Effect #2. The $467, 182 reported in this effect contin
interest in the general fun l                                       ransferred to the HA VA
election fund. The interest eal11ed .           ays               . d along with the
$467, 182, into             e ection fund. We do not believe there was a os        .
     . gs uring this timeframe.
Auditor Note: The finding and recommendation pertaining to the crossed out OLG response
was resolved satisfactorily and, therefore, was excluded in this final report.

NFR #4 State Matching Funds

A State Single Audit made the OLG aware of the requirement of depositing matching
money into the HAVA investment fund. After being made aware of the issue the OLG
insured from that point forward matching funds would be deposited with the investment.
This was done for the additional $1 ,599,503 received as soon as pennission was received
by the State Legislature to transfer the matching funds .

The State Single Audit did not make a Notice of Finding on this issue since all matching
requirements had previously been made- most of them as an in-kind match. The OLG,
followed state policy on retention and destroyed much of the past paperwork on the
match. At this time the state has exceed state match requirements by $86,935. OLG does
not dispute that interest was lost, but suggest that the $86,935 of exceed state match
money, be used towards the lost interest.

One of the purposes of the Single Audit was for other Federal Auditors to rely on the
Single Audit auditors. With this in mind, after the audit was complete the past paperwork
was destroyed if it met the state's retention schedule.



NFR #5- Program Interest

The OLG purchased t-shirts that were given to individuals, free of charge, during a
variety of voter education events. Subsequently many county clerks asked to purchase t­
shi11s for staff and poll workers . OLG charged $5 per t-shirt. In June and July of2006,
951 t-shirts were sold and 59 more were sold si nce that time, for a total of 1,0 10 shirts
($5 ,050).

The original intent was not to sell any t-shi11s, but rather give them out free of charge,
consequently the OLG did not identify the requirement to deposit the money generated
from the sale into the HAY A election fund.

OLG agrees with this finding and wi ll agree to pay $5,050 into the HA VA election fund .
In addition, the loss interest, calculated £i'om the present back to the sale, will also be
paid.




                                          12
                                                 2
                                                                            Appendix A-2




                        EAC RESPONSE TO THE DRAFT AUDIT:
                        OIG Performance Audit Report on the Administration of
                        Payments Received Under the Help America Vote Act by the
                        State of Utah, for the Period April 29, 2003 Through July 31,
                        2010.

March 14,2011

MEMORANDUM

To: 	            Curtis Crider
                 Inspector General

Fr~~ ' )Thomas R. Wilkey
  \... /'    ll\.... Executive Director
    ---- -.,.
Subject: 	       Draft Performance Audit Report - "Administration of Payments
                 Received Under the Help America Vote Act by the State of Utah".

Thank you for this opportunity to review and respond to the draft audit report for
Utah.

The Election Assistance Commission (EAC) generally concurs with the results of
the review and recommendations. The EAC will work with the Office of
Lieutenant Governor for the State of Utah (OLG) to ensure appropriate corrective
action including the implementation of required federal record retention policies.




                                          13
                                                                                       Appendix B
                                    AUDIT METHODOLOGY


Our audit methodology included:

•	 Assessing audit risk and significance within the context of the audit objectives.

•	 Obtaining an understanding of internal control that is significant to the administration of the
   HAVA funds.

•	 Understanding relevant information systems controls as applicable.

•	 Identifying sources of evidence and the amount and type of evidence required.

•	 Determining whether other auditors have conducted, or are conducting, audits of the
   program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed:

•	 Interviewed appropriate OLG employees about the organization and operations of the HAVA
   program.

•	 Reviewed prior single audit report and other reviews related to the state’s financial
   management systems and the HAVA program for the last 2 years.

•	 Reviewed policies, procedures and regulations for the OLG’s management and accounting
   systems as they relate to the administration of HAVA programs.

•	 Analyzed the inventory lists of equipment purchased with HAVA funds.

•	 Tested major purchases and supporting documentation.

•	 Tested randomly sampled payments made with the HAVA funds.

•	 Verified support for reimbursements to local governments (counties, cities, and
   municipalities).

•	 Reviewed certain state laws that impacted the election fund.

•	 Examined appropriations and expenditure reports for state funds used to meet the five
   percent matching requirement for section 251 requirements payments.

•	 Evaluated compliance with the requirements for accumulating financial information reported
   to the Commission on the Financial Status Reports, Forms SF-269 and 425, accounting for
   property, purchasing HAVA related goods and services, and accounting for salaries.

•	 Verified the establishment and maintenance of an election fund.




                                                14
	
•	 Conducted site visits of selected counties/towns to perform the following:

     �   Observe equipment purchased with HAVA funds for proper accounting and
         safeguarding
     �   Ensure compliance with HAVA Act.




                                               15
	
                                                                              Appendix C
                                                                                          


             MONETARY IMPACT AS OF JULY 31, 2010



                                                 Questioned       Additional Funds for
                Description                        Costs                Program

   Unsupported in-kind expenditures for
   state matching funds                              $176,108                       $0

   Underreported expenditures on SF425                186,234                        0

   Underreported state matching funds on
   SF425                                               53,740                        0

   Estimated Interest earnings not reported
   on SF425 (Note)                                            0                  8,155


   Total                                             $416,082                   $8,155



Note:		 There is an undetermined amount of interest earnings due the election fund on late
        payments of state matching funds, HAVA funds that remain in the general fund, and
        program income that has not been transferred to the election fund.




                                              16
	
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1201 New York Ave. NW - Suite 300
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
